No. 20-1334

 

In THE
Supreme Court of the United States

BRADLEY BOARDMAN, a Washington
Individual Provider, e¢ al.,

Petitioners,
v.

JAY R. INSLEE, Governor of the
State of Washington, e¢ al.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

AMICUS CURIAE BRIEF OF
THE FAIRNESS CENTER
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,485 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 23, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
